     Department of Homeland Security

     ��������������������������



 U.S. Citizenship and Immigration Services’ Tracking 

and Monitoring of Potentially Fraudulent Petitions and 

 Applications for Family-Based Immigration Benefits 





OIG-13-97                                     June 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                            Washington, DC 20528 / www.oig.dhs.gov


                                            June 12, 2013

MEMORANDUM FOR: 	             The Honorable Alejandro Mayorkas
                              Director
                              U.S. Citizenship and Immigration Services

FROM:                         Charles K. Edwards
                              Deputy Inspector General

SUBJECT:                      U.S. Citizenship and Immigration Services’ Tracking and
                              Monitoring of Potentially Fraudulent Petitions and
                              Applications for Family-Based Immigration Benefits

Attached for your information is our final letter report, U.S. Citizenship and Immigration
Services’ Tracking and Monitoring of Potentially Fraudulent Petitions and Applications
for Family-Based Immigration Benefits. We incorporated the formal comments from the
U.S. Citizenship and Immigration Services in the final report.

The report contains one recommendation aimed at improving procedures to record,
update, and monitor fraud-related information. Your office concurred with the
recommendation. As prescribed by the Department of Homeland Security Directive
077-01, Follow-Up and Resolution for Office of Inspector General Report
Recommendations, within 90 days of the date of this memorandum, please provide our
office with a written response that includes your (1) agreement or disagreement,
(2) corrective action plan, and (3) target completion date for each recommendation.
Also, please include responsible parties and any other supporting documentation
necessary to inform us about the current status of the recommendation. Until your
response is received and evaluated, the recommendations will be considered open and
unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing

copies of our report to appropriate congressional committees with oversight and 

appropriation responsibility over the Department of Homeland Security. We will post

the report on our website for public dissemination.


Major contributors to this report are Brad Mosher, Audit Manager; Chris Chamberlain,

Auditor; Elaine Ferguson, Auditor; Richard Joyce, Auditor; Keith Lutgen, Auditor; 

Matt Noll, Auditor; Katrina Bynes, Referencer; and Kelly Herberger, Communications 

Analyst.


Please call me with any questions, or your staff may contact Anne L. Richards, Assistant 

Inspector General for Audits, at (202) 254-4100. 


Attachment

                                OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Background
   In the Department of Homeland Security (DHS), U.S. Citizenship and Immigration
   Services (USCIS) oversees lawful immigration to the United States. U.S. immigration law
   grants permanent resident status to aliens who legally marry a U.S. citizen or lawful
   permanent resident and to certain aliens who are family members of U.S. citizens or
   lawful permanent residents. Immigration benefits may lead to the right to apply for and
   receive Social Security and Medicare benefits and food stamps, and the opportunity to
   sponsor alien spouses and relatives for permanent residency.

   We performed this audit to determine whether USCIS recorded information about
   adjudicated family-based petitions and applications suspected of being fraudulent
   according to agency policy requirements and in a manner that deterred immigration
   fraud.

   U.S. citizens or lawful permanent residents who petition to sponsor a qualifying family
   member, including a spouse, must file a PetitionfforfAlienfRelative (Form I-130) with
   USCIS.1 USCIS officers adjudicate I-130 petitions at field offices or service centers.
   Through the I-130 adjudication process, USCIS must validate that the petitioner is a
   U.S. citizen or lawful permanent resident. When the petitioner is sponsoring an alien
   spouse, the petitioner must establish that the marriage is valid. For petitioners
   sponsoring relatives, USCIS must determine the validity of the relationship before
   approving the I-130 petition.

   Approval of an I-130 petition grants an alien immediate relative already residing in the
   United States the ability to apply for permanent residence by filing an Applicationftof
   RegisterfPermanentfResidenceforfAdjustfStatus (Form I-485). An alien spouse or alien
   immediate relative who has an approved I-130 petition and is residing outside the
   United States may apply at a U.S. embassy or consulate for an immigrant visa to live in
   the United States. USCIS offices process all I-130 petitions and I-485 applications filed
   concurrently.

   According to USCIS policy, I-130 petitions and I-485 applications suspected of being
   fraudulent are to be referred to the USCIS Fraud Detection and National Security
   Directorate (FDNS) for further investigation. FDNS personnel are located in every
   domestic USCIS service center, as well as in district, field, and asylum offices and in
   certain overseas offices; they report to field management in field offices and service

   1
     U.S. citizens may apply for their husband or wife or their married or unmarried children. If they are at
   least 21 years of age, they may also petition for parents, brothers, or sisters. Lawful permanent residents
   may apply for their husband or wife and unmarried children, regardless of age.


www.oig.dhs.gov                                         2                                           OIG-13-97 

                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

   centers. Once they complete their investigation, FDNS officers return the petition or
   application to adjudicators with a Statement of Findings (SOF) summarizing their work
   and identifying one of the following results: (1) Fraud Found; (2) Fraud Not Found; or
   (3) Inconclusive. Adjudicators consider the SOF when deciding whether to grant
   immigration benefits.

   USCIS initially reviews I-130 petitions for aliens located overseas who wish to obtain a
   visa to live in the United States. USCIS then forwards approved I-130 petitions to a
   Department of State consular officer, who conducts an interview to determine eligibility
   of the alien into the United States. The Department of State sends petitions that are
   suspected of or found to be fraudulent back to a USCIS service center as consular
   returns. USCIS policy requires that all consular returns suspected of or determined to
   be fraudulent be returned to the originating service center and routed to FDNS for
   investigation and creation of a case file in the FDNS-Data System (FDNS-DS) and in TECS,
   when applicable.2 USCIS may either reaffirm or revoke petitions suspected of being
   fraudulent. When a USCIS adjudicator reaffirms a petition, the original petition is
   returned to Department of State with a cover letter explaining why the petition was
   reaffirmed. When an adjudicator revokes a petition, the Department of State can no
   longer issue a visa.

   Results of Audit
   USCIS has procedures to track and monitor documentation related to petitions and
   applications for family-based immigration benefits suspected of being fraudulent.
   However, once family-based immigration petitions and applications were investigated
   and adjudicated, fraud-related data were not always recorded and updated in
   appropriate electronic databases to ensure their accuracy, completeness, and reliability.
   Specifically, FDNS personnel did not record in appropriate electronic databases all
   petitions and applications denied, revoked, or rescinded because of fraud. Supervisors
   also did not review the data entered into the databases to monitor case resolution.
   Without accurate data and adequate supervisory review, USCIS may have limited its
   ability to track, monitor, and identify inadmissible aliens, and to detect and deter
   immigration benefit fraud.

   USCIS procedures require FDNS personnel to record cases of identified immigration
   fraud in TECS. USCIS uses TECS to record cases of suspected or identified immigration
   fraud, as well as aliens inadmissible to the United States. The system is linked to DHS


   2
    TECS, formerly called The Treasury Enforcement Communications System, is now referred to only by its
   acronym.


www.oig.dhs.gov                                      3                                         OIG-13-97

                                 OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

   law enforcement facilities worldwide and allows other Federal, State, and local entities
   to access the data.

   FDNS did not record all cases of identified fraud in TECS. For example, nationwide from
   fiscal year (FY) 2008 through FY 2011, USCIS denied or revoked 2,557 family-based I-130
   petitions for fraud. Of these petitions, 622 were associated with an FDNS finding of
   fraud, but 302 (49 percent) did not have corresponding TECS records. In the same period,
   at the four offices we evaluated, 6 (21 percent) of 29 family-based I-130 petitions
   associated with an FDNS finding of fraud did not have corresponding TECS records.

   For the same period, nationwide, USCIS denied or rescinded 2,961 family-based I-485
   applications for fraud. Of these applications, 522 were associated with an FDNS finding
   of fraud, but 247 (47 percent) did not have corresponding TECS records. A review of
   data from the same period at the four offices we evaluated showed that 3 (11 percent)
   of 28 family-based I-485 applications denied or rescinded for fraud had no TECS records.
   Table 1 shows the total number of family-based I-130 petitions and I-485 applications
   with an FDNS finding of fraud that were denied, revoked, or rescinded, as well as the
   number and percentage of corresponding TECS records.

   Table 1. TECS Records for Family-based Immigration Petitions and
   Applications With an FDNS Finding of Fraud That Were Denied, Revoked, or Rescinded
                                   FYs 2008–2011
    Petition/Application Total With FDNS      TECS Record     No TECS Record
            Type           Finding of Fraud
                            (Fraud Found)
       National I-130            622           320 (51.4%)      302 (48.6%)
        Local* I-130              29           23 (79.3%)        6 (20.7%)

        National I-485                   522                   275 (52.7%)   247 (47.3%)
         Local* I-485                     28                   25 (89.3%)     3 (10.7%)
   Source: DHS OIG analysis of USCIS data.

   *Local refers to the four offices that we evaluated.


   At the four offices we evaluated, supervisors in adjudications and FDNS units did not
   monitor database entries to determine whether fraud cases had been properly recorded.

   Conclusion
   Not following USCIS’ established procedures to record, update, and monitor fraud-
   related information in databases may have increased the risk that aliens committing



www.oig.dhs.gov                                            4                               OIG-13-97

                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

   fraud were granted immigration benefits or given additional opportunities to apply for
   benefits. Accurate immigration and law enforcement database records would enable
   USCIS to improve its ability to track, monitor, and deter fraud.

   Recommendation
   We recommend that the Director, U.S. Citizenship and Immigration Services:

   Clarify and enforce policies and procedures to ensure that TECS records are created and
   updated for all identified cases of immigration benefit fraud.

   Management Comments and OIG Analysis
   Recommendation: USCIS concurred with the recommendation. Management indicated
   that it has (1) reviewed its existing procedural guidance that governs the creation and
   maintenance of TECS records; (2) determined that, to focus greater attention on TECS
   policies and procedures, it will remove TECS guidance from the current Fraud Detection
   Standard Operating Procedure and issue separate guidance on TECS; and (3) drafted the
   enhanced TECS guidance. USCIS plans to issue the enhanced TECS guidance within 30
   days.

   OIG Analysis: USCIS’ planned corrective actions are responsive to the recommendation.
   This recommendation will remain open and resolved until we receive documented
   support that USCIS has issued the enhanced TECS guidance.




www.oig.dhs.gov                               5                                   OIG-13-97

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objective, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of our audit was to determine whether USCIS recorded information about
   adjudicated family-based petitions and applications suspected of being fraudulent
   according to agency policy requirements and in a manner that deterred immigration
   fraud. To accomplish our objective, we assessed USCIS’ efforts to process, evaluate, and
   respond to family-based petitions and applications with suspected immigration benefit
   fraud that were adjudicated between October 1, 2007, and September 30, 2011.

   We obtained and reviewed all pertinent Federal, Departmental, and USCIS-specific
   regulations, policies, procedures, and internal controls governing the processing and
   adjudication of family-based petitions and applications.

   We reviewed I-130 petitions and I-485 applications denied, revoked, or rescinded by
   USCIS adjudicators between FYs 2008 and 2011 at the offices we visited. The purpose of
   the review was to determine whether the petitions, applications, and consular returns
   had been recorded according to established USCIS’ policies. We limited USCIS office
   visits to Baltimore, MD; Mt. Laurel, NJ; Philadelphia, PA; Washington, DC; and the
   Vermont Service Center in St. Albans, VT.

   We relied on computer-processed USCIS data that contained information on family-
   based petitions from FYs 2008 through 2011. We conducted a limited review through
   physical observation of the process used to update these systems to ensure that the
   data were sufficiently reliable for use in meeting our audit objective. In developing our
   tests, we worked with personnel from USCIS’ Office of Performance and Quality, Office
   of Policy and Strategy Field Operations Directorate, Service Center Operations
   Directorate, and FDNS.

   Tracking and Monitoring Test

   Positive TECS matches were based on a match of both name and date of birth for the
   petitioner, beneficiary, or applicant. Using a total of 1,838 Form I-130 and Form I-485
   receipts with a matching FDNS-DS record, we identified instances in which at least one


www.oig.dhs.gov                                6                                    OIG-13-97

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   of the subjects involved with the petition or application had a corresponding TECS
   record. To verify the data, we checked the date of birth used to query TECS against the
   date of birth returned with a matching name.

   We interviewed USCIS officials from FDNS, Service Center Operations, Field Office
   Operations, Office of Policy and Strategy, Office of Performance and Quality, Office of
   Chief Counsel, and Office of General Counsel.

   We conducted this performance audit between August 2011 and January 2012 pursuant
   to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.

   We appreciate the cooperation by USCIS management and staff in providing the
   information and access necessary to accomplish this review.




www.oig.dhs.gov                                7                                    OIG-13-97

                   OFFICE OF INSPECTOR GENERAL
                      Department of Homeland Security


   Appendix B
   Management Comments to the Draft Letter Report




www.oig.dhs.gov                    8                    OIG-13-97

                  OFFICE OF INSPECTOR GENERAL
                    Department of Homeland Security




www.oig.dhs.gov                  9                    OIG-13-97

                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix 
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Acting Chief Privacy Officer

U.S. Citizenship and Immigration Services

USCIS Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                               10                        OIG-13-97
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
